                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM
                                               ',

     Case Number: A04110067                                                                       Page 1 of 1



                  In response to concerns that a COPI' may have vacationed internationally using NSF funds
          rather than collecting data as proposed, we requested and revieied documentation for his awards2
          provided to us by his university.3 During our review, the university initiated its own internal audit of
          the awards and provided us a copy of the final audit report. That report identified several internal
          control issues with the university's travel reimbursements, time and effort reporting, and an
          overpayment of indirect costs to its subawardee; which the university has taken steps to return to
          NSF. After visiting the university and speaking with personnel associated with the CoPI's projects,
          we determined that the evidence did not substantiate malfeasance on the part of the CoPI. His
          vacation did not appear to be NSF funded. He did appear to have work product from the time period
          in question. He and his colleagues appear to have had a falling out during the execution of the
          awards. Although the quality of the work product appeared to be a matter of debate among the
          project personnel, we found no indication that warranted a research misconduct investigation. We
          have concluded that the issues in the case are internal to university.

                     Accordingly, this case is closed.




I'                                                                                                                   I1

 NSF OIG Form 2 (1 1/02)
